               

               

                     U.S. ENVIRONMENTAL PROTECTION AGENCY 

                     OFFICE OF INSPECTOR GENERAL 




                     Controls Over EPA’s
                     Compass Financial System
                     Need to Be Improved
                     Report No. 13-P-0359                    August 23, 2013




Scan this mobile
code to learn more
about the EPA OIG.
Report Contributors:	                              Rudolph M. Brevard
                                                   Michael Goode
                                                   Sabrena Stewart
                                                   Eric Jackson
                                                   Gina Ross
                                                   Teresa Richardson




Abbreviations

AICPA         American Institute of Certified Public Accountants
CFO           Chief Financial Officer
EPA           U.S. Environmental Protection Agency
NIST          National Institute of Standards and Technology
OCFO          Office of the Chief Financial Officer
OIG           Office of Inspector General
OMB           Office of Management and Budget
QASP          Quality Assurance Surveillance Plan




  Hotline
  To report fraud, waste, or abuse, contact us through one of the following methods:

  email:     OIG_Hotline@epa.gov                      write:    EPA Inspector General Hotline
  phone:     1-888-546-8740                                     1200 Pennsylvania Avenue, NW
  fax:       202-566-2599                                       Mailcode 2431T
  online:    http://www.epa.gov/oig/hotline.htm                 Washington, DC 20460
                        U.S. Environmental Protection Agency 	                                                13-P-0359
                                                                                                         August 23, 2013
                        Office of Inspector General


                        At a Glance

Why We Did This Review              Controls Over EPA’s Compass Financial
We conducted this audit to          System Need to Be Improved
determine what steps the
U.S. Environmental Protection        What We Found
Agency took to ensure that
internal controls over the          Processes were not in place to monitor performance of the EPA Office of the
financial reporting by Compass      Chief Financial Officer’s third party service provider of Compass. Also, OCFO
Financials have been designed       security personnel were not aware of Compass security roles and
appropriately and are operating     responsibilities. This lack of oversight:
effectively. We also sought to
determine the extent of the               Inhibits the EPA’s ability to achieve agreed-upon performance levels and
EPA’s reliance on its service              correctly pay for services rendered.
organization to make assertions           Decreases the likelihood that an effective security posture will be
about the effectiveness of its             maintained.
internal controls over financial
reporting. Additionally, we         Further, disaster recovery exercise plans did not include testing of data
reviewed the EPA’s oversight        replication processes critical to financial reporting, resulting in the EPA having
strategy for key Compass            no assurance that Compass will operate as designed during a disaster.
processes.
                                    Recommendations and Planned Agency Corrective Actions
In October 2011, the EPA
replaced its legacy financial       We recommended that the Chief Financial Officer develop a process to monitor
management system. The new          and evaluate, on a monthly basis, the service provider’s performance and adjust
system, Compass, was                service level requirements accordingly. Further, we recommended that the CFO
developed and is currently          communicate key roles and responsibilities to designated security personnel,
hosted by a third party service     and test Compass data replication during a functional disaster recovery
provider. During fiscal year        exercise.
2012, the EPA used Compass to
produce its financial statements    OCFO did not agree with our recommendations in the draft report. We met with
that were submitted to the Office   and reviewed documentation provided by OCFO related to recommendations 1
of Management and Budget and        through 3. Our review determined that OCFO made progress in addressing our
Congress.                           findings related to management oversight of service provider performance and
                                    the OIG has agreed to amend recommendations 1 through 3 to reflect this
This report addresses the           progress. The OIG also considers corrective actions taken by OCFO prior to the
following EPA Goal or               issuance of the draft report in response to recommendation 4 to be sufficient to
Cross-Cutting Strategy:             close this recommendation. We also amended recommendation 5 to reflect
                                    agreed-upon alternative corrective actions that OCFO should take to address
   Strengthening EPA's             our findings related to Compass disaster recovery. OCFO concurred with these
    workforce and capabilities.     changes.

For further information, contact    After these amendments, we recommended that the CFO finalize internal
our Office of Congressional and     procedures used for reviewing the service provider’s performance, continue to
Public Affairs at (202) 566-2391.   review service provider performance on a monthly basis and document results
The full report is at:
                                    of the monthly meetings, finalize the revised Quality Assurance Surveillance
www.epa.gov/oig/reports/2013/       Plan that includes revised service level requirements to accurately assess
20130823-13-P-0359.pdf              service provider performance, and test inherent Compass financial reporting
                                    capabilities during a functional disaster recovery exercise.
                           UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                        WASHINGTON, D.C. 20460



                                                                                     THE INSPECTOR GENERAL




                                            August 23, 2013

MEMORANDUM

SUBJECT:       Controls Over EPA’s Compass Financial System Need to Be Improved
               Report No. 13-P-0359

FROM:          Arthur A. Elkins Jr.

TO:            Maryann Froehlich, Acting Chief Financial Officer

This is our report on the subject audit conducted by the Office of Inspector General of the
U.S. Environmental Protection Agency. This report contains findings that describe the problems
the OIG identified and the corrective actions the OIG recommends. This report represents the opinion of
the OIG and does not necessarily represent the final EPA position. The EPA agreed with all five
recommendations. These recommendations are considered unresolved pending our receipt of the EPA’s
corrective action plan and estimated completion dates.

Action Required

In accordance with EPA Manual 2750, you are required to provide planned corrective actions and
completion dates for all unresolved recommendations within 60 calendar days. Your response will be
posted on the OIG’s public website, along with our memorandum commenting on your response. Your
response should be provided as an Adobe PDF file that complies with the accessibility requirements of
Section 508 of the Rehabilitation Act of 1973, as amended. The final response should not contain data
that you do not want to be released to the public; if your response contains such data, you should
identify the data for the redaction or removal along with corresponding justification. We will post this
report to our website at http://www.epa.gov/oig.

If you or your staff have any questions regarding this report, please contact Richard Eyermann at
(202) 566-0565 or eyermann.richard@epa.gov, or Rudolph M. Brevard at (202) 566-0893 or at
brevard.rudy@epa.gov.
Controls Over EPA’s Compass                                                                                               13-P-0359
Financial System Need to Be Improved


                                  Table of Contents 


Chapters
   1	   Introduction .......................................................................................................       1


                Purpose .......................................................................................................    1    

                Background .................................................................................................       1    

                Scope and Methodology ..............................................................................               1    


   2	   Management Oversight of Compass Service Provider 

        Needs Improvement ..........................................................................................               3


                OCFO Does Not Have a Process to Evaluate
                     Service Provider Performance...........................................................                       3

                Recommendations ......................................................................................             4        

                Agency Response and OIG Evaluation .......................................................                         4


   3	   Compass Security and Disaster Recovery

        Process Improvements Needed........................................................................                        6


                Lack of Knowledge of Key Security Processes Inhibits 

                       EPA’s Ability to Handle Risks ...........................................................                   6

                Critical Data Replication Function Not Tested for 

                       Contingency Operations ....................................................................                 6

                Recommendations ......................................................................................             7

                Agency Response and OIG Evaluation .......................................................                         7


   Status of Recommendations and Potential Monetary Benefits..............................                                         9




Appendices
   A	   Agency Response to Draft Report....................................................................                       10


   B	   Distribution .........................................................................................................    13

                                  Chapter 1

                                   Introduction
Purpose
            The Office of Inspector General of the U.S. Environmental Protection Agency
            conducted this audit to determine what steps the EPA took to ensure that internal
            controls over the financial reporting by Compass Financials have been designed
            appropriately and are operating effectively. We also sought to determine the
            extent of the EPA’s reliance on its service organization to make assertions about
            the effectiveness of its internal controls over financial reporting. Further, we
            reviewed the agency’s strategy for overseeing key Compass processes.

Background
            In October 2011, the EPA’s Office of the Chief Financial Officer replaced its
            legacy financial management system (the Integrated Financial Management
            System) with a new system—Compass. Compass was developed and is hosted by
            a third party service provider. The EPA indicated the objectives of Compass are
            to:

               	 Achieve or enhance process improvements and cost savings in the
                  acquisition, development, implementation, and operation of financial
                  management systems through shared services, joint procurements,
                  consolidation, and other means.

               	 Provide for standardization of business processes and data elements.

               	 Promote seamless data exchange between and among federal agencies.

               	 Strengthen internal controls through real-time interoperability of core
                  financial and subsidiary systems.

Scope and Methodology
            We performed this audit from February 2012 to May 2013 at EPA headquarters in
            Washington, D.C., and at the third party service provider’s data center in Phoenix,
            Arizona. We performed this audit in accordance with generally accepted
            government auditing standards. Those standards require that we plan and perform
            the audit to obtain sufficient and appropriate evidence to provide a reasonable
            basis for our findings and conclusions based on the audit objectives.



13-P-0359                                                                                     1
            We conducted the review of Compass key processes and its third party service
            provider’s expected service level goals. Further, we reviewed the agency’s
            strategy for monitoring the third party service provider’s performance. We also
            reviewed steps taken to ensure that internal controls over financial reporting have
            been designed appropriately and are operating effectively.

            Our criteria included agency security plans and policies and the National Institute
            of Standards and Technology Special Publication 800-53, Recommended Security
            Controls for Federal Information Systems and Organizations. The evaluation of
            these controls and agency guidance were carried out through inquiry, observation,
            and review of documentation.

            We identified issues during this audit regarding the ability of the agency’s Compass
            service provider to assess the design and operating effectiveness of controls over
            business processes affecting the EPA. We reported them in EPA OIG Report No.
            13-1-0054, Audit of EPA’s Fiscal 2012 and 2011 Consolidated Financial
            Statements, because of the potential impact these issues could have on the agency’s
            ability to conduct reliable financial reporting. Since the publishing of the agency’s
            financial statement audit report, OCFO has concurred with our findings in this area
            and is in the process of taking steps to address the deficiencies noted.




13-P-0359                                                                                      2
                                   Chapter 2

             Management Oversight of Compass 

            Service Provider Needs Improvement
 
            Internal agency processes were not in place to monitor performance of OCFO’s
            third party service provider for Compass. Federal and agency guidance requires
            the timely review and monitoring of a service provider’s performance. This lack
            of oversight inhibits the EPA’s ability to achieve agreed-upon performance levels
            and correctly pay for services rendered.

OCFO Does Not Have a Process to Evaluate Service Provider
Performance
            OCFO had not established an internal process for how it would conduct a review
            of service provider performance. Though OCFO had a QASP in place that stated
            that it would review service provider performance, the EPA had not documented
            how its internal review process would be performed. OCFO only asserted that it
            had assembled a team of OCFO personnel to review service provider
            performance, but roles and responsibilities had not been determined. Office of
            Management and Budget Circular A-127, Financial Management Systems, states
            that agencies must monitor their service providers’ performance. The EPA’s
            Contracts Management Manual also states that the program office’s contracting
            officer’s representative is responsible for overseeing contractor performance and
            notifying the contracting officer as to whether the contractor met established
            performance standards. Lack of documented internal procedures for the EPA’s
            review of its service provider inhibits the EPA’s ability to ensure that the service
            provider internal reviews are conducted in a manner consistent with EPA policy
            and executive branch directives.

            Proposed Quarterly Review Not Timely

            At the time of this review, OCFO had not documented an internal process to
            review service provider performance. However, OCFO has discussed reviewing
            service provider performance on a quarterly basis. We were encouraged that
            OCFO had begun to discuss how it will review contractor performance, but this
            review must occur more frequently. OMB Circular A-127 states that agencies
            must ensure that service failures are resolved promptly. In addition, EPA’s
            Contracts Management Manual requires a monthly review of a contractor’s
            progress reports. Limiting the review of performance to a quarterly basis increases
            the risk that oversight of performance will not be timely.




13-P-0359                                                                                       3
            Service Level Requirements Have Not Been Adjusted

            OCFO and its service provider had not adjusted service level requirements by the
            end of the burn-in period as agreed. OCFO uses the service level requirements to
            measure service provider performance. Service level requirements are also used to
            calculate penalties for nonperformance. OCFO agreed to a 6-month burn-in
            period in which the EPA and its service provider would work together to review
            performance thresholds and measurement methods, and make adjustments as
            necessary. The EPA agreed not to assess penalties during the burn-in period. After
            the burn-in period, OCFO agreed to measure its service provider’s performance
            based on the adjusted service level requirements metrics. The burn-in period has
            ended and OCFO and its service provider are still reviewing the service level
            requirements. OCFO anticipates reducing the number of service level
            requirements to refine the performance metrics and better assess where penalties
            can be applied. However, by not having adjusted service level requirements in
            place by the end of the burn-in period, OCFO cannot accurately measure and
            evaluate its service provider’s performance.

            We met with OCFO representatives to discuss our findings related to oversight of
            the service provider’s performance. OCFO management stated that they
            assembled a team to conduct performance reviews. OCFO also submitted to the
            audit team an informal standard operating procedure for reviewing service
            provider performance. Our review of the information provided by OCFO
            disclosed that while the agency started taking steps to review the service
            provider’s performance, management had not yet finalized its processes or
            documented the results of its monthly meetings.

Recommendations
            We recommend that the chief financial officer:

               1.	 Finalize internal procedures used for reviewing the service provider’s
                   performance.

               2.	 Continue to review service provider performance on a monthly basis and
                   document results of the monthly meetings.

               3.	 Finalize the revised Quality Assurance Surveillance Plan that includes the
                   revised service level requirements to accurately assess service provider
                   performance.

Agency Response and OIG Evaluation
            OCFO initially disagreed with our recommendations regarding service provider
            performance. OCFO stated they did not believe the draft report accurately
            reflected the state of the EPA’s oversight of the service provider. OCFO

13-P-0359                                                                                    4
            specifically noted that the draft report did not acknowledge that the EPA had a
            QASP that outlines its oversight procedures. While the EPA had a QASP, roles
            and responsibilities had not been determined for the team responsible for
            performing oversight nor had formalized processes been developed to ensure
            consistent review of the service provider’s performance. However, we updated the
            report to acknowledge the existence of the QASP. Furthermore, we met with and
            reviewed additional documentation provided by OCFO related to their
            disagreement with recommendations 1-3. Our review of provided documentation
            determined that OCFO has made progress in addressing our findings related to
            management oversight of service provider performance and the OIG agreed to
            amend recommendations 1 - 3 to reflect this progress. OCFO concurred with
            these changes.




13-P-0359                                                                                  5
                                    Chapter 3

            Compass Security and Disaster Recovery 

               Process Improvements Needed
 
             OCFO security personnel were not aware of Compass security roles and
             responsibilities. Federal guidance states that a management official
             knowledgeable in the nature of the information should be assigned security
             responsibilities for each major application. This lack of knowledge greatly
             decreases the likelihood that an effective security posture will be maintained.
             Also, disaster recovery exercises did not test data replication processes vital to
             financial reporting. Federal guidance states that contingency plan testing should
             be conducted in real or near-real time, to allow participants to carry out their roles
             and responsibilities as realistically as possible. Without conducting disaster
             recovery testing that includes all components, the EPA cannot be assured that
             Compass will operate as designed during a disaster.

Lack of Knowledge of Key Security Processes Inhibits EPA’s
Ability to Handle Risks

             OCFO has defined system security processes for Compass, but staff assigned key
             system security duties were not knowledgeable about processes, roles, and
             responsibilities. OMB Circular A-130, Appendix III, Security of Federal
             Automated Information Resources, states that responsibility for security should be
             assigned to those knowledgeable in the nature of those security tasks assigned to
             them. When we interviewed personnel responsible for Compass security
             incidents, they were unable to convey how security incidence responses are
             handled or identify their role and responsibilities within the process. Also, some
             of the personnel who were documented in the Compass system security plan as
             having assigned security roles were unaware that they were listed in the system
             security plan or that they were points of contact for the oversight of key security
             controls. Lack of knowledge regarding security roles and responsibilities could
             result in the ineffective design and operation of Compass security controls.

Critical Data Replication Function Not Tested for
Contingency Operations
             OCFO did not include data replication in its Compass disaster recovery testing
             plans. Financial data entered into Compass is replicated from the Compass
             hosting location to the EPA’s Research Triangle Park data center. The replicated
             data feed the Compass Data Warehouse, which generates the agency’s financial
             reports. If data replication is not functioning during a disaster, the Compass Data
             Warehouse cannot generate financial reports. The Contingency Plan and Exercise

13-P-0359                                                                                         6
            section within NIST Special Publication 800-53, Recommended Security Controls
            for Federal Information Systems and Organizations, states that organizations
            should demonstrate realistic test/exercise scenarios that effectively stress the
            information system and support the Agency’s mission. In addition, NIST Special
            Publication 800-84, Guide to Test, Training, and Exercise Programs for IT Plans
            and Capabilities, states that functional exercises are typically conducted in real or
            near-real time and prompt participants to carry out their roles and responsibilities
            as realistically as possible. Without including data replication testing in functional
            disaster recovery exercise plans, the EPA has no assurance that Compass will
            operate as designed during a disaster.

            We met with OCFO representatives to discuss their concerns regarding our
            disaster recovery audit findings. OCFO representatives stated that disaster
            recovery exercise plans would still not include testing of Compass data replication
            and maintain that Compass has the ability to carry out reporting functions in the
            event of a disaster. As such, they maintain, that testing data replication to the
            Compass data warehouse is not necessary. However, if the EPA relies upon
            Compass reporting capabilities during a disaster, the agency should have a plan to
            test its capability. Our review of the EPA’s disaster recovery results revealed that
            management had not taken steps to identify key Compass reports that require
            testing during disaster recovery exercises

Recommendations
            We recommend that the chief financial officer:

               4.	 Communicate key roles and responsibilities to designated security
                   personnel.

               5.	 Test inherent Compass financial reporting capabilities during a functional
                   disaster recovery exercise.

Agency Response and OIG Evaluation

            OCFO completed agreed upon corrective actions associated with recommendation
            4 prior to the issuance of the draft report. The OIG considers corrective actions
            taken to be sufficient to address our findings and have closed this
            recommendation. OCFO did not agree with our recommendation to test the
            COMPASS data replication as part of the disaster recovery exercise. OCFO stated
            that data replication is not a mission-critical component of the agency’s
            contingency planning and disaster recovery processes. We met with OCFO to
            discuss their concerns and reviewed the latest disaster recovery test results. While
            the EPA does not rely on data replication for its financial reporting capabilities
            during a disaster, management does rely upon the COMPASS inherent reporting
            capabilities during contingencies. As such, the OIG believes it is incumbent upon
            management to have a process to test the most critical COMPASS reporting

13-P-0359                                                                                        7
            functions during disaster recovery exercises. As a result of our meeting, the OIG
            agreed to amend the recommendation to reflect agreed upon alternative corrective
            actions that OCFO should take to address our finding in this area. OCFO
            concurred with this change.




13-P-0359                                                                                   8
                                 Status of Recommendations and
                                   Potential Monetary Benefits

                                                                                                                           POTENTIAL MONETARY
                                                    RECOMMENDATIONS                                                         BENEFITS (in $000s)

                                                                                                               Planned
    Rec.    Page                                                                                              Completion   Claimed    Agreed-To
    No.      No.                          Subject                         Status1      Action Official           Date      Amount      Amount

     1        4     Finalize internal procedures used for reviewing the     U       Chief Financial Officer
                    service provider’s performance.

     2        4     Continue to review service provider performance         U       Chief Financial Officer
                    on a monthly basis and document results of the
                    monthly meetings.

     3        4     Finalize the revised Quality Assurance Surveillance     U       Chief Financial Officer
                    Plan that includes revised service level
                    requirements to accurately access service provider
                    performance.

     4        7     Communicate key roles and responsibilities to           C       Chief Financial Officer    12/13/12
                    designated security personnel.

     5        7     Test inherent Compass financial reporting               U       Chief Financial Officer
                    capability during a functional disaster recovery
                    exercise.




1    O = recommendation is open with agreed-to corrective actions pending
     C = recommendation is closed with all agreed-to actions completed
     U = recommendation is unresolved with resolution efforts in progress




13-P-0359                                                                                                                                      9
                                                                                    Appendix A

                  Agency Response to Draft Report
MEMORANDUM

SUBJECT: 	 Response to the Office of Inspector General Draft Report No. OMS-FY12-0002
           “Controls Over EPA’s Compass Financial System Need to Be Improved,” dated
           May 23, 2013

FROM:          Maryann Froehlich
               Acting Chief Financial Officer

TO:	           Arthur A. Elkins, Jr.
               Inspector General

Thank you for the opportunity to respond to the issues and recommendations in the subject draft
audit report. Following is a summary of the agency’s overall position, along with its position on
each of the report recommendations. For the report recommendations with which the agency
does not agree, we have explained our position and proposed alternatives to recommendations.

AGENCY’S OVERALL POSITION

We do not believe the draft report accurately reflects the state of EPA oversight of our service
provider’s performance or the information provided to the auditors. We do not agree with
recommendation numbers 1-3. Auditors, who met with my staff in the Office of Technology
Solutions (OTS) last year, were informed that the initial process for reviewing service provider
performance was going to be changed. The draft report does not acknowledge that there was, and
is, such a process as is defined in our Quality Assurance Surveillance Plan (QASP). We are in
the midst of negotiating changes to the existing QASP that will modify our process for reviewing
contractor performance. Even though these negotiations are still in progress, we are not without a
QASP as the current QASP remains fully in effect and operative.

The QASP (provided to the auditors) documents the service level requirements to which the
service provider is held. The service provider does submit monthly reports on these requirements
and performance is discussed at monthly review meetings, as required in the Contracts
Management Manual, contrary to the draft finding. The reference in the draft report regarding,
”reviewing service provider performance on a quarterly basis,” is a documented evaluation in
addition to the monthly review and informal feedback routinely provided to the service provider.

We do not agree with recommendation number 4 on communicating responsibilities to security
personnel as this action was completed prior to issuance of the draft report. OTS, in a July 16,
2012, memorandum to the audit team, offered to provide refresher training on security roles and
responsibilities to staff. When the training was held on December 13, 2012, OTS sent the audit


13-P-0359                                                                                       10
team an email on the same date that informed them that OTS personnel had been briefed on
security roles/responsibilities and provided the audit team a copy of the training presentation.

We also do not agree with recommendation number 5 on testing data replication during a disaster
recovery exercise. Mission-critical transactional data is maintained in the core financial system
and this system is subject to contingency planning and disaster recovery. Since the data
replication process represents the creation of a local copy of this transactional data, we submit
that this process is not mission-critical and should not be included in disaster recovery exercises.
OIG acknowledges that there is no requirement to include replication in disaster recovery and
has not presented a reason to justify the allocation of scarce resources to do so.

AGENCY’S RESPONSE TO REPORT RECOMMENDATIONS

No.     Recommendation                 Agency Explanation/Response          Proposed Alternative
1       Develop a process to           EPA has a process in place and       Complete and implement
        monitor service provider       is negotiating changes to update     adjusted service level
        performance.                   it.                                  requirements to accurately
                                                                            assess service provider
                                                                            performance.
2       Review and evaluate            Service provider performance is      Evaluate service provider
        service provider               discussed at monthly meetings.       performance on a quarterly
        performance on a monthly       We believe quarterly written         basis. Continue reviewing
        basis.                         evaluation is sufficient when        performance at monthly
                                       combined with the monthly            meetings.
                                       meetings.
3       Adjust service level           As noted above, EPA is in the        Complete and implement
        requirements to accurately     process of making such               adjusted service level
        assess service provider        adjustments. OIG was informed        requirements to accurately
        performance.                   that this effort would occur.        assess service provider
                                                                            performance.
4       Communicate key roles and      EPA assigns certain security         Remove or acknowledge that
        responsibilities to            roles by signed memorandum.          corrective action was taken
        designated security            Additionally, OIG was informed       prior to the draft report.
        personnel.                     on 12/13/12 of an Office-wide
                                       briefing on this subject.
5       Test Compass data              Replication is not mission-          Delete this recommendation.
        replication during a           critical. The transactional system
        functional disaster recovery   is key; reporting/feeder systems
        exercise.                      do not qualify for recovery.

We would welcome the opportunity to meet with OIG staff and discuss our concerns with the
draft recommendations. If you have any questions regarding this response, please contact
Quentin Jones, Director, Office of Technology Solutions, on (202) 564-0373 or Susan
Lindenblad, OTS Audit Liaison, on (202) 566-2890.




13-P-0359                                                                                                 11
cc: 	Richard Eyerman, Acting Assistant Inspector General for Audit
     David Bloom Acting Deputy Chief Financial Officer
     Joshua Baylson, Associate Chief Financial Officer
     Quentin Jones, Director, Office of Technology Solutions
     Robert Hill, Deputy Director, Office of Technology Solutions




13-P-0359                                                             12
                                                                            Appendix B

                                    Distribution
Office of the Administrator
Chief Financial Officer
Agency Follow-Up Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for External Affairs and Environmental Education
Deputy Chief Financial Officer
Audit Follow-Up Coordinator, Office of the Chief Financial Officer




13-P-0359                                                                            13
